IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2017
No.
BYRON BROWN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
PROOF OF SERVICE
I, Gregory T. Mitchell, a licensed attorney in the State of Illinois, appointed by the
Court of Appeals for the Seventh Circuit and the Northern District of Illinois to
represent petitioner Norvell Moore under the Criminal Justice Act of 1964, 18 U.S.C. ยง
3006A(d)(6), and in accordance with Supreme Court Rule 29(5)(b), certify that a copy of
the Petition for Writ of Certiorari for Byron Brown, was served, via U.S. Mail, first-class,
postage prepaid, to the below listed parties:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Byron Brown, Inmate ID# R22858
Western Illinois Correctional Center
2500 Rt. 99 South
Mount Sterling, Illinois 62353
Gregory T. Mitchell
Law Office of Gregory T. Mitchell, P.C.
18141 Dixie Highway, Suite 115
Homewood, Illinois 60430
Counsel for Byron Brown
November 25, 2020

